U.S. Department of Labor


                       Office of Inspector General—Office of Audit






                                                                       RECOVERY ACT: PERFORMANCE
                                                                       REPORTING CREATES CHALLENGES FOR
                                                                       THE DEPARTMENT OF LABOR




                                                                                           Date: September 29, 2009
                                                                                    Report Number: 18-09-002-01-001
U.S. Department of Labor                                September 2009
Office of Inspector General
Office of Audit                                         RECOVERY ACT: PERFORMANCE
                                                        REPORTING CREATES CHALLENGES FOR
                                                        THE DEPARTMENT OF LABOR
BRIEFLY…
Highlights of Report Number: 18-09-002-01-001,          WHAT OIG FOUND
Recovery Act: Performance Reporting Creates             Overall, the Department has implemented three of
Challenges for the Department Of Labor, to the Senior   the five performance reporting areas required by
Accountable Official for the American Recovery and      OMB; however, some challenges remain. We
Reinvestment Act of 2009.                               identified three actions the Department needs to
                                                        take to increase transparency and accountability:
WHY READ THE REPORT                                     1) ETA should report whether participants in the
The Recovery Act, signed into law on February 17,       WIA Adult and Dislocated Worker programs were
2009, provided an estimated $45 billion to the          connected to “jobs in demand;” 2) the Department
Department to increase employment and training          needs to develop and implement controls relating
opportunities, expand unemployment benefits,            to recipient reporting; and 3) the Department
enforce worker protection laws, coordinate              needs to update its Program-specific Recovery Act
activities related to the infrastructure and            Plans to fully reflect program-specific risks. These
unemployment insurance investments, and                 issues occurred because ETA limited Recovery
construct, rehabilitate, acquire, and operate Job       Act performance reporting for the WIA programs to
Corps Centers.                                          the existing common measures for job training; the
                                                        Department had been waiting for more instructions
The stated purposes of the Recovery Act are to          from OMB concerning recipient data reporting; the
1) preserve and create jobs and promote                 Department prioritized its efforts to meet OMB
economic recovery; 2) assist those most impacted        deadlines; and OMB did not require submission of
by the recession; 3) provide investments needed         the Risk Management Plans or provide a deadline
to increase economic efficiency by spurring             for their completion.
technological advances in science and health; 4)
invest in transportation, environmental protection,     As a result, the Department had not planned to
and other infrastructure that will provide long-term    report if recipients are using Recovery Act funds
economic benefits; and 5) stabilize state and local     as Congress intended; unreliable recipient data
government budgets, in order to minimize and            could be published that may mislead or confuse
avoid reductions in essential services and              the public; and agencies may have developed
counterproductive state and local tax increases.        ineffective performance measures that increase
                                                        the Department’s risk of not meeting the
The Recovery Act will require agencies to               accountability and transparency objectives of the
implement an unprecedented level of transparency        Recovery Act.
and accountability to ensure the public can see
where and how their tax dollars are being spent.        WHAT OIG RECOMMENDED
                                                        We made four recommendations to the Senior
WHY OIG CONDUCTED THE AUDIT                             Accountable Official for the American Recovery
The audit was to determine whether the                  and Reinvestment Act to improve performance
Department implemented, or had plans to                 reporting.
implement, Office of Management and Budget
(OMB) performance reporting requirements under          The Senior Accountable Official for the American
the Recovery Act.                                       Recovery and Reinvestment Act agreed with the
                                                        findings and has taken actions to address the
READ THE FULL REPORT                                    findings and recommendations. However, it is not
To view the report, including the scope,                clear how the Department plans to report what
methodology, and full agency response, go to:           industry-specific training and related job
http://www.oig.dol.gov/publicreports/oa/2009/           placements WIA Adult and Dislocated Worker
18-09-002-01-001.pdf.                                   program participants received.
                                                                   Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective – Has the Department implemented, or does it have plans to implement,
OMB performance reporting requirements under the Recovery Act?

         Finding 1 – ETA should report whether participants in the WIA Adult and 

            Dislocated Worker programs were connected to “jobs in demand”. ............... 4

         Finding 2 – The Department needs to develop and implement controls 

            relating to recipient reporting........................................................................... 7

         Finding 3 – The Department needs to update its Program-specific 

            Recovery Act Plans to fully reflect program-specific risks. .............................. 8



Recommendations ...................................................................................................... 10


Appendices
         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology and Criteria ................................... 17 

         Appendix C Acronyms and Abbreviations .......................................................... 19

         Appendix D Department Response to Draft Report............................................ 21





                                                                     Performance Reporting Under The Recovery Act
                                                                                     Report No. 18-09-002-01-001
                Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Performance Reporting Under The Recovery Act
                                 Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210


September 29, 2009


                        Assistant Inspector General’s Report


Edward C. Hugler
Senior Accountable Official
 for the American Recovery and Reinvestment Act of 2009
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

On February 17, 2009, the President signed into law the American Recovery and
Reinvestment Act (Recovery Act), which appropriated $44.9 billion to the Department of
Labor. The Department’s key roles in this recovery effort are to provide worker training
and to ease the burden of the recession on workers and employers by extending
unemployment benefits and assisting and educating them regarding expanded access
to continued health benefits.

Both the President and Congress have emphasized the need for accountability,
efficiency, and transparency in the allocation and expenditure of Recovery Act funds.
Accordingly, the Office of Management and Budget (OMB) has issued guidance to
Federal agencies requiring performance reporting in five areas — (1) Major
Communications, such as news items and major press events; (2) Weekly Financial and
Activity Reports, which include major actions taken and planned; (3) Agency-wide
Recovery Act Plans, to identify how the Department will apply and manage Recovery
Act funds; (4) Program-specific Recovery Act Plans, which include performance
measures; and (5) Recipient reporting, for non-Federal recipients of Recovery Act
funds.

The audit objective was to determine whether the Department implemented, or had
plans to implement, OMB performance reporting requirements under the Recovery Act.

The audit covered the Department’s practices, policies and procedures for reporting
performance under the Recovery Act, as of June 25, 2009. We conducted interviews
with management and staff from the Employment and Training Administration (ETA),
Employee Benefits Security Administration (EBSA), Office of the Assistant Secretary for
Administration and Management (OASAM), Office of Job Corps (OJC), and
Occupational Safety and Health Administration (OSHA) to gain an understanding of the
Department’s process for reporting performance under the Recovery Act. We reviewed
Recovery Act plans, assessments and reports related to risks, activities, milestones and
progress toward achieving the Department’s Recovery Act goals and targets.

                                                  Performance Reporting Under The Recovery Act
                                            1                     Report No. 18-09-002-01-001
                                                 Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

The Department is in the process of implementing the five required OMB performance
reporting areas and has taken effective actions in three of these areas; however, we
found some challenges remain. We identified three actions the Department needs to
take to increase the transparency and accountability of its Recovery Act programs —
1) ETA should report whether participants in the WIA Adult and Dislocated Worker
programs were connected to “jobs in demand;” 2) the Department needs to develop and
implement controls relating to recipient reporting; and 3) the Department needs to
update its Program-specific Recovery Act Plans to fully reflect program-specific risks.

These issues occurred because ETA limited Recovery Act performance reporting for the
WIA programs to the existing common measures for job training; and the Department
had been waiting for more detailed instructions from OMB concerning recipient data
reporting. Finally, in light of the tight time frames for implementing the Recovery Act, the
Department prioritized its efforts to meet OMB deadlines. OMB did not require
submission of the Risk Management Plans or provide a deadline for their completion.

As a result, the Department does not plan to report if recipients are using Recovery Act
funds as Congress intended; unreliable recipient data could be published that may
mislead or confuse the public; and agencies may have developed ineffective
performance measures that increase the Department’s risk of not meeting the
accountability and transparency objectives of the Recovery Act.

As illustrated by the issues discussed above, the Department faces continued
challenges in its efforts to ensure the Department’s use of, and benefits derived from,
Recovery Act funds are transparent to the public. Recipient reporting controls and
complete risk assessments should be in place to ensure that reporting of relevant
program activities or pertinent issues are timely and accurate.

In response to the draft report, the Senior Accountable Official for the American
Recovery and Reinvestment Act of 2009 agreed with the findings and has taken actions
to address the findings and recommendations to ensure compliance with OMB
requirements under the Recovery Act. However, it is not clear how the Department
plans to report what industry-specific training and related job placements WIA Adult and
Dislocated Worker program participants received. This information is needed to
demonstrate the Department is achieving Recovery Act goals. The Department’s
response is included in its entirety as Appendix D.

                                                  Performance Reporting Under The Recovery Act
                                             2                    Report No. 18-09-002-01-001
                                                       Department of Labor – Office of Inspector General




RESULTS AND FINDINGS

Objective — Has the Department implemented, or does it have plans to
implement, OMB performance reporting requirements under the Recovery Act?

Overall, the Department has implemented three of the five performance reporting areas
required by OMB under the Recovery Act; however, we found some challenges remain.
We identified three actions the Department needs to take to increase the transparency
and accountability of its Recovery Act programs — 1) ETA should report whether
participants in the WIA Adult and Dislocated Worker programs were connected to “jobs
in demand;” 2) the Department needs to develop and implement controls relating to
recipient reporting; and 3) the Department needs to update its Program-specific
Recovery Act Plans to fully reflect program-specific risks.

OMB Memorandum, dated April 3, 2009, required the Department to report the following
pertaining to performance:

Table: OMB Recovery Act Reporting Requirements
OMB Reporting Area          OMB Reporting Requirements                                    Implemented
Major Communications        News items determined to be appropriate for posting on
                            Recovery.gov, as well as major press events and
                            videos produced for the implementation of the                      Yes
                            Recovery Act, must be cleared by the senior
                            accountable official.

Weekly Financial and        A weekly report that includes a short bulleted list of the
Activity Report             major actions taken to date and major planned actions              Yes
                            must be submitted to OMB for publication on
                            Recovery.gov.

Agency-wide Recovery Act    A formal documented plan for how the Recovery Act
Plans                       funds will be applied and managed must be developed                Yes
                            and submitted to OMB no later than May 1, 2009, and
                            finalized no later than May 15, 2009.

Program-specific Recovery   Separate plans for each program funded by the
Act Plans                   Recovery Act must be developed and submitted to
                            OMB no later than May 1, 2009, and finalized no later          In Progress
                            than May 15, 2009. These plans are required to include       (Findings 1 & 3)
                            performance measures for each program consistent
                            with agencies’ Risk Management Plans.

Recipient Reporting         Beginning October 10, 2009, non-Federal recipients of
                            Recovery Act funds will be required to submit a
                            quarterly report containing performance data such as           In Progress
                            the status of Recovery Act projects and estimates on            (Finding 2)
                            the numbers of jobs created or retained by the projects.




                                                         Performance Reporting Under The Recovery Act
                                                   3                     Report No. 18-09-002-01-001
                                                    Department of Labor – Office of Inspector General


Finding 1 – ETA should report whether participants in the WIA Adult and
Dislocated Worker programs were connected to “jobs in demand.”

ETA does not plan to report or measure if recipients used Recovery Act funds to train
and place participants in high-demand occupations or industries. OMB requires Federal
agencies to develop Program-specific Recovery Act Plans that included measures for
each program receiving Recovery Act funds. However, ETA limited WIA reporting under
the Recovery Act to the existing common performance measures — entered
employment rate, employment retention rate, and average earnings. Without linking
training and employment to high-growth sectors, the Department cannot provide
assurance it is achieving the purposes of the Recovery Act by reporting if participants
were trained for and placed in high-growth sectors.

ETA Recovery Act Plans Cited Connecting Participants to “Jobs in Demand” as an
Objective, but Contained No Related Measures

OMB guidance required Federal agencies to develop Program-specific Recovery Act
Plans that included measures for each program receiving Recovery Act funds. These
measures were defined as “expected quantifiable outcomes consistent with the intent
and requirements of the legislation and the risk management requirements … with each
outcome supported by a corresponding quantifiable output(s).”

OMB approved ETA’s Program-specific Recovery Act Plans, including those for the WIA
Adult and Dislocated Worker programs.1 The purposes of both programs, as identified
in their plans, include assisting individuals by “increasing work readiness, educational
attainment, occupational skills, and connecting them to jobs in demand.” (Underscoring
added.)

However, Section 6 of the Program-specific Recovery Act plans — Measures — did not
include any “quantifiable” outcomes to show Recovery Act recipients connected
participants in the WIA Adult and Dislocated Worker programs to “jobs in demand.” ETA
used existing common performance measures — entered employment rate,
employment retention rate, and average earnings — and added selected “Monthly
Performance Report Indicators.” Among the indicators are the following:

       Number of participants served
       Number of individual training accounts
       Number of participants in training
        o Number in on-the-job training
        o Number in skill upgrading and retraining
        o Number in customized training




1
 Copies of the OMB-approved Recovery Act plans are available on the Internet at:
http://www.dol.gov/recovery/plans.htm#prgm
                                                    Performance Reporting Under The Recovery Act
                                                4                        Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General


None of these measures provide information to show if Recovery Act recipients used
additional WIA funds to train for and place participants in “jobs in demand” or jobs in
growing industry sectors.

ETA Guidance to States Emphasized the Importance of High-Growth Industry Sectors

ETA issued guidance to the states which stressed the importance of developing and
refining innovative service delivery strategies in the context of regional economies.
ETA’s Training and Employment Guidance Letter (TEGL) 14-08 states that, “The One-
Stop system’s success in implementing the Recovery Act will be gauged in part by the
progress it achieves in using annual appropriations along with Recovery Act funds to
help unemployed, underemployed, and dislocated workers find new, good jobs and to
access and remain in the middle class; to help low-skill or low-income workers acquire
21st century skills, find family-supporting jobs in healthy industries….”

TEGL 14-08 required states to submit modified WIA plans to ETA by June 30, 2009. As
part of the modified plan, each state was required to provide an analysis that included
“current and anticipated impacts on employment by sector, current and projected
demographics of the available labor pool including income levels as appropriate, and
describe any skills gaps the state faces, based on the skills held by current and
expected dislocated workers and the skills demanded by industries and occupations
expected to grow through economic recovery.”

ETA’s plan for performance reporting under the Recovery Act has no provisions to
report if WIA participants received training and obtained employment in these high-
demand sectors. Without this information, ETA will be unable gauge the One-Stop
system’s success in implementing the Recovery Act.

ETA Does Not Report On High-Demand Occupational Training or Employment

ETA limited Recovery Act performance reporting for the WIA Adult and Dislocated
Worker programs to the existing WIA common measures for job training — entered
employment, job retention, and average earnings. ETA’s standardized WIA reporting
system does not report on high-demand occupational training provided or the resulting
employment within the related sectors or industry-specific areas. Without this
information, the Department cannot provide assurance recipients used Recovery Act
funds to train and place participants in high-growth industries or high-demand
occupations.

The Recovery Act requires Federal agencies to use Recovery Act funds to achieve the
purposes of the Act. The purposes of the Act include the following:

      (1) To preserve and create jobs and promote economic recovery.
      (2) To assist those most impacted by the recession.
      (3) To provide investments needed to increase economic 

          efficiency by spurring technological advances in science and 


                                                 Performance Reporting Under The Recovery Act
                                            5                    Report No. 18-09-002-01-001
                                                      Department of Labor – Office of Inspector General


             health.
         (4) To invest in transportation, environmental protection, and other 

             infrastructure that will provide long-term economic benefits. 


While additional Recovery Act resources to the Department included WIA funds, which
by law must be used to train participants for high demand occupations, Congress added
another layer of accountability — to achieve the purposes of the Recovery Act. Without
reporting participants trained for and placed in high-growth sectors, the Department
cannot provide assurance it is achieving the purposes of the Recovery Act.

ETA Does Not Plan to Track Occupation of Training and Employment to Sector

ETA officials said the agency does not intend to track the occupations in which
individuals were trained and placed to industries and occupations in demand. ETA is
depending on local Workforce Investment Boards to make sure participants are
receiving occupational skill training relevant to local and regional employers, and placed
in training-related jobs.

TEGL 24-08 required state workforce agencies to continue using the Workforce
Investment Act Standardized Record Data (WIASRD) to report monthly on the number
of participants served, including those who receive training services. The current
WIASRD individual record includes fields for the recipient to report occupation of
training and employment, using an eight-digit O*Net code.2 Each O*Net code can be
linked to related sectors or industry clusters like construction, energy, and health care.

However, ETA currently only aggregates data on occupation of training and
employment in the annual WIA Summary Report which shows the number and percent
of participants trained in one of the following five general categories:

    1.   Managerial, Professional, and Technical
    2.   Service Occupations
    3.   Sales and Clerical
    4.   Farming, Fishing, Forestry, Construction and Extraction
    5.   Installation, Maintenance, Repair, Production, Transportation, and Material
         Moving

This limited level of reporting in WIASRD is not adequate for showing how the
Department is achieving its goals for the Recovery Act because these categories do not
show if participants were trained and placed in a high-demand occupation or high-
growth industry. Additional reporting on industry-specific training and employment can
increase transparency and accountability for the Department and show that recipients
are using Recovery Act funds as Congress intended.



2
 O*Net is an online occupational information database containing more than 1100 occupational titles and
17 in-demand industry clusters, developed under the sponsorship of an ETA grant.
                                                       Performance Reporting Under The Recovery Act
                                                   6                      Report No. 18-09-002-01-001
                                                 Department of Labor – Office of Inspector General


In response to this audit, the Department stated ETA will prepare a report of quantitative
information of the type of occupational training provided with Recovery Act funds for the
WIA Adult and Dislocated Worker programs, but it is not clear how that report will differ
from the general occupational training currently reported. The Department needs to
clarify how it plans to report what industry-specific training and related job placements
WIA Adult and Dislocated Worker participants received. This data is needed to
demonstrate the Department is achieving the goals of the Recovery Act.

Finding 2 – The Department needs to develop and implement controls relating to
recipient reporting.

The Department needs to develop policies and procedures to perform data quality
reviews on quarterly recipient reports. These reports are required by Section 1512 of
the Recovery Act and will be published on Recovery.gov beginning October 2009. OMB
issued guidance on April 3, 2009, requiring agencies to “initiate oversight mechanisms
for quality, completeness and timeliness of data submissions.” The Department had not
developed such policies because it had been waiting for more detailed instructions from
OMB concerning recipient reporting. OMB issued this guidance on June 22, 2009. If the
Department does not develop and implement controls to address recipient reporting,
this could result in unreliable recipient data being published that may mislead or confuse
the public.

Section 1512 of the Recovery Act, also known as the "Jobs Accountability Act,” requires
that recipients of Recovery Act funds submit quarterly reports regarding the use of those
funds, as well as their impact on the Recovery Act’s goal of creating or preserving
jobs. In an effort to provide an unprecedented level of transparency and accountability,
these reports will be made available to the public on the Recovery.gov website.

A recipient is defined as any entity, other than an individual, including States that
receives recovery funds directly from the Federal government through contracts, grants,
loans or agreements. Recipients are also responsible for reporting detailed information
on any subcontracts or subgrants awarded with recovery funds.

OMB’s Implementing Guidance, issued April 3, 2009, required the first of these quarterly
recipient reports be submitted by October 10, 2009. It also required Federal agencies
“initiate oversight mechanisms for quality, completeness, and timeliness of data
submissions.” However, the guidance did not include detailed reporting instructions but
stated this information would be made available no less than 45 days prior to the
reporting deadline.

OMB finally issued guidance on June 22, 2009, to clarify the recipient reporting process.
This guidance also required Federal agencies to perform data quality reviews on
recipient data.

The data quality reviews required by OMB emphasize the avoidance of material
omissions and significant reporting errors. Material omissions result in significant risk

                                                  Performance Reporting Under The Recovery Act
                                             7                    Report No. 18-09-002-01-001
                                                  Department of Labor – Office of Inspector General


that the public is not fully informed as to the status of a Recovery Act project. Significant
reporting errors result in significant risk that the public will be misled or confused by the
reported data.

Recipients are required to submit their reports using a centralized web portal at
FederalReporting.gov within ten days of the end of the quarter. The Federal agency
review period starts the 22nd day following the end of the quarter. Federal agencies’
data quality reviews and recipient data corrections must both be completed by the 29th
day following the end of the quarter. No later than 30 days after the end of the quarter,
the recipient reports will be made available to the public on the Recovery.gov website.

Due to the Department’s lack of a specific methodology for conducting data quality
reviews on recipient reports, there is an increased risk that the recipient data reported
on Recovery.gov may mislead or confuse the public. ETA is a significantly high-risk
agency because it expects to award hundreds of grants to recipients using Recovery
Act funds but the Department will only have a short amount of time to complete its data
quality reviews. On July 24, 2009, ETA submitted a Risk Management Plan specifically
for Section 1512 recipient reporting which identified review and reporting risks; however,
ETA’s mitigation strategies have not yet been implemented.

In response to this audit, the Department has issued guidance to establish and
implement controls related to Section 1512 recipient reporting.

Finding 3 – The Department needs to update its Program-specific Recovery Act
Plans to fully reflect program-specific risks.

The Department could not demonstrate that the performance measures included in its
Program-specific Recovery Act Plans were developed with full consideration of
program-specific risks. OMB required that these plans include performance measures
consistent with agency Risk Management Plans. However, four of seven agencies
submitted their Program-specific Recovery Act plans prior to completing their Risk
Management Plans. This occurred because, in light of the tight time frames for
implementing the Recovery Act, the Department prioritized its efforts to meet OMB
deadlines. OMB did not require submission of the Risk Management Plans or provide a
deadline for their completion. In response to our audit, ETA is in the process of
developing Risk Management Plans for its 14 programs, which accounted for $44.5
billion of The Department’s $44.9 billion in Recovery Act funds. In addition, OJC has
updated its Risk Management Plan to include program-specific risks related to
performance.

The Department needs to continue its commitment to complete and correct its Risk
Management Plans. Without full consideration of program-specific risks, agencies may
have developed ineffective performance measures that increase the Department’s risk
of not meeting the accountability and transparency objectives of the Recovery Act. The
Department's overall risk mitigation plan may also be ineffective because it is dependent
on the program-specific Risk Management Plans.

                                                   Performance Reporting Under The Recovery Act
                                              8                    Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General




OMB Memorandum dated April 3, 2009, Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009, Section 2.8, requires each
Program-specific Recovery Act Plan to include measures that are “expected quantifiable
outcomes consistent with the intent and requirements of the legislation and [OMB’s] risk
management requirements.”

In addition, the Department will be required to report on their risk management efforts to
OMB. The Department’s risk assessments, mitigation plans, and reporting for risks will
initially be for internal Department use and include details for achieving recovery
program goals.

OMB approved Program-specific Recovery Act Plans did not identify and address
program-specific risks

OMB required the Department to develop a formal plan for how Recovery Act funds will
be applied and managed. This Agency-wide Recovery Act Plan describes both broad
Recovery Act goals and how different parts of the agency are coordinating efforts
toward successful implementation and monitoring. In addition, OMB required the
Department to develop Program-specific Recovery Act Plans for each program funded
by the Recovery Act to summarize the Recovery Act projects and planned activities.

All final Recovery Act Plans were submitted to OMB by the due date on May 15, 2009,
and subsequently approved by OMB. However, the final Recovery Act Plans may not
have included Risk Management Plan details as required by OMB.

On April 14, 2009, OASAM’s Center for Program Planning and Results (CPPR) advised
all agencies to prepare the Risk Management Plans and asked agencies to provide
feedback to the risk plan template that was sent on April 8, 2009. The template provided
detailed information needed in the Risk Management Plan. ETA officials acknowledged
that the agency did not prepare the Program-specific Recovery Act Plans in conjunction
with the Risk Management Plans. According to ETA officials, ETA had received a risk
plan template and copies of the risk plans other agencies submitted. Nevertheless, ETA
failed to follow CPPR guidance to prepare the risk assessment plans. As a result, the
performance measures in the OMB-approved Recovery Act plans for ETA may not fully
address program-specific risks essential to the success of ETA’s Recovery Act funded
programs.

On July 24, 2009, subsequent to our fieldwork, ETA submitted to CPPR updated Risk
Management Plans that included program-specific recovery risks and mitigation
strategies. According to an ETA official, the plans may need to be further updated to
incorporate risks identified as part of the State Readiness consultations.




                                                 Performance Reporting Under The Recovery Act
                                            9                    Report No. 18-09-002-01-001
                                                 Department of Labor – Office of Inspector General


The Department depends on program-specific Risk Management Plans in its overall risk
mitigation

Consistent with sound program management principles, OMB requires each
Department receiving recovery funds to develop formal plans for how the recovery
funds will be applied and managed. The Department’s Agency-wide Recovery Act Plan
should describe both broad Recovery Act goals and how different parts of the
Department are coordinating efforts toward successful implementation and monitoring.
The Department must describe processes in place for senior managers to regularly
review the progress and performance of major programs, including identifying areas of
risk and completing corrective actions.

An essential part of the Department’s Agency-wide Recovery Act Plan under description
of Department accountability mechanisms is risk mitigation. According to this plan, the
Department will use Risk Management Plans as a baseline to regularly review
performance. Specifically, it states:

      Accountability for risk mitigation will be maintained through the careful monitoring
      of agency risk management performance measures and mitigation strategy
      triggers. Using Risk Management Plans as a baseline, senior [Department]
      leadership will regularly review findings and results from performance reviews,
      with emphasis placed on programs with highest risk.

Since ETA had not completed the Risk Management Plans for its 14 programs, which
accounted for $44.5 billion of the Department’s $44.9 billion in Recovery Act funds, and
the Department relies heavily on the Risk Management Plans in its risk mitigation
process, the Department’s role to mitigate risks may be compromised.

In response to this audit, the Senior Accountable Official stated the Department will
ensure that all final Recovery Act risk plans include program-specific risks.

Recommendations

We recommend that the Senior Accountable Official for the American Recovery and
Reinvestment Act of 2009:

   1. Report quantitative information on the number and percent of participants who
      receive selected industry-specific training and employment under the WIA Adult
      and Dislocated Worker programs. The information should reflect high-growth
      industries or high-demand occupations.

   2. Ensure that internal controls and procedures have been established and
      implemented for conducting data quality reviews of recipient reporting in advance
      of the October 2009 statutory reporting deadline.



                                                  Performance Reporting Under The Recovery Act
                                            10                    Report No. 18-09-002-01-001
                                              Department of Labor – Office of Inspector General


   3. Ensure all agencies submit final Risk Management Plans that include program-
      specific risks.

   4. Update the Department’s Program-specific Recovery Act Plans to reflect risks
      identified in the final Risk Management Plans, and coordinate any changes made
      to the Program-specific Recovery Act Plans with OMB.




Elliot P. Lewis
Assistant Inspector General for Audit




                                               Performance Reporting Under The Recovery Act
                                         11                    Report No. 18-09-002-01-001
                   Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    Performance Reporting Under The Recovery Act
              12                    Report No. 18-09-002-01-001
                    Department of Labor – Office of Inspector General




Appendices 





                     Performance Reporting Under The Recovery Act
               13                    Report No. 18-09-002-01-001
                   Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    Performance Reporting Under The Recovery Act
              14                    Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Recovery Act, signed into law on February 17, 2009, provided an estimated $45
billion to the Department to increase employment and training opportunities, expand
unemployment benefits, enforce worker protection laws, coordinate activities related to
the infrastructure and unemployment insurance investments, and construct, rehabilitate,
acquire, and operate Job Corps Centers.

The stated purposes of the Recovery Act are to:

     preserve and create jobs and promote economic recovery; 

     assist those most impacted by the recession; 

     provide investments needed to increase economic efficiency by spurring 

      technological advances in science and health;
    invest in transportation, environmental protection, and other infrastructure that
      will provide long-term economic benefits; and
   	 stabilize state and local government budgets, in order to minimize and avoid
      reductions in essential services and counterproductive state and local tax
      increases.

The Recovery Act will require agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent. To assist federal agencies with carrying out programs and
activities enacted in the Recovery Act, OMB issued the following guidance:

      M-09-10 Initial Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009, dated February 18, 2009;
      M-09-15 Updated Implementing Guidance for the American Recovery and
       Reinvestment Act of 2009, dated April 3, 2009; and
      M-09-21,Implementing Guidance for the Reports on Use of Funds Pursuant to
       the American Recovery and Reinvestment Act of 2009, dated June 22, 2009.




                                                 Performance Reporting Under The Recovery Act
                                           15                    Report No. 18-09-002-01-001
                   Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    Performance Reporting Under The Recovery Act
              16                    Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

OBJECTIVE

We conducted an audit to determine whether the Department implemented, or had
plans to implement, OMB performance reporting requirements under the Recovery Act.

SCOPE

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We audited Department Recovery Act practices, policies, and procedures through June
25, 2009. We audited the Department for compliance with the Act and OMB guidance,
specific to performance reporting. Fieldwork was conducted at Department
Headquarters located in Washington, D.C. We did not test controls or financial activity.
The audit scope did not include $6 million received by the Office of Inspector General.

METHODOLOGY

We reviewed the Department’s plans to carry out its Recovery Act activities.
Specifically, we focused our attention on ETA, OSHA, EBSA and OJC because they
have the most impact on the Recovery Act initiative to assist those most affected by the
recession. ETA received the largest amounts of Recovery Act funds to increase
employment and training opportunities and expand unemployment benefits. OSHA will
protect workers’ safety and health at projects funded under the Recovery Act through
targeted enforcement. EBSA will assist with the Recovery Act Consolidated Omnibus
Budget Reconciliation Act’s (COBRA) premium assistance provisions that expand
COBRA eligibility and provide eligible individuals with a 65 percent reduction of their
COBRA premiums for up to 9 months. OJC will create jobs and stimulate economic
activity across the nation through construction and rehabilitation of Job Corps centers.
These 4 agencies account for 17 of the Department’s 22 Recovery Act programs, and
approximately $44.8 billion out of $44.9 billion.

We met with officials from ETA, OSHA, EBSA, OJC, and OASAM. Our activities
focused on reviewing the Department and programs’ Recovery Act Plans, Risk
Management Plans, and determining what systems the agencies had in place to track
and report program performance under the Recovery Act.

We relied on interviews with agencies and reviewed the Department’s policies and
procedures. We assessed the design and implementation of internal controls but did not
                                                 Performance Reporting Under The Recovery Act
                                           17                    Report No. 18-09-002-01-001
                                                Department of Labor – Office of Inspector General


test their effectiveness. Furthermore, financial reporting was performed as a separate
assignment.

CRITERIA

We used the following to perform this audit:

   	 OMB Guidance M-09-10 Initial Implementing Guidance for the American 

      Recovery and Reinvestment Act of 2009, February 18, 2009. 


   	 OMB Guidance M-09-15 Updated Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009, April 3, 2009.

   	 OMB Guidance M-09-21 Implementing Guidance for the Reports on Use of
      Funds Pursuant to the American Recovery and Reinvestment Act of 2009, June
      22, 2009.

   	 The American Recovery and Reinvestment Act, February 17, 2009.




                                                 Performance Reporting Under The Recovery Act
                                           18                    Report No. 18-09-002-01-001
                                           Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations

COBRA                 Consolidated Omnibus Budget Reconciliation Act

CPPR                  Center for Program Planning and Results

Department            Department of Labor

EBSA                  Employee Benefits Security Administration

ETA                   Employment and Training Administration

OJC                   Office of Job Corps

O*NET                 Occupational Information Network

OMB                   Office of Management and Budget

OSHA                  Occupational Safety and Health Administration

OASAM                 Office of the Assistant Secretary for Administration and
                      Management

Recovery Act          American Recovery and Reinvestment Act of 2009

TEGL                  Training and Employment Guidance Letter

WIA                   Workforce Investment Act

WIASRD                Workforce Investment Act Standardized Record Data




                                            Performance Reporting Under The Recovery Act
                                      19                    Report No. 18-09-002-01-001
                   Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                    Performance Reporting Under The Recovery Act
              20                    Report No. 18-09-002-01-001
                                             Department of Labor – Office of Inspector General 



                                                                               Appendix D
Department’s Response to Draft Report




                                              Performance Reporting Under The Recovery Act
                                        21                    Report No. 18-09-002-01-001
     Department of Labor – Office of Inspector General 





      Performance Reporting Under The Recovery Act
22                    Report No. 18-09-002-01-001
     Department of Labor – Office of Inspector General 





      Performance Reporting Under The Recovery Act
23                    Report No. 18-09-002-01-001
PAGE INTENTIONALLY LEFT BLANK 





                   Performance Reporting Under The Recovery Act
              24                   Report No. 18-09-002-01-001
To report Fraud, Waste, or Abuse, please contact:

           Online:       http://www.oig.dol.gov/hotlineform.htm
           Email:        hotline@oig.dol.gov

           Telephone:	   1-800-347-3756
                         202-693-6999

           Fax:          202-693-7020

           Address:      Office of Inspector General
                         U.S. Department of Labor
                         200 Constitution Avenue, N.W.
                         Room S-5506
                         Washington, D.C. 20210
